<html>
<title> - MORMON CRICKET INFESTATION IN THE GREAT BASIN OF THE UNITED STATES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  MORMON CRICKET INFESTATION IN THE GREAT BASIN OF THE UNITED STATES
=======================================================================


                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION
                               __________

                             July 19, 2001
                               __________

                           Serial No. 107-51
                               __________

           Printed for the use of the Committee on Resources







 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE
73-963                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                    JOEL HEFLEY, Colorado, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
Wayne T. Gilchrest, Maryland             Samoa
George Radanovich, California        Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado









                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 19, 2001....................................     1

Statement of Members:
    Bennett, Hon. Robert, a United States Senator from the State 
      of Utah....................................................     6
        Prepared statement of....................................     8
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah, Prepared statement of.......................    40
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     4
    Gibbons, Hon. Jim, a Representative in Congress from the 
      State of Nevada............................................     5
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     6
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     3
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Anderson, Hon. Michael, Mayor, Oak City, Utah................    26
        Prepared statement of....................................    27
    Dunkle, Dr. Richard, Deputy Administrator for Plant 
      Protection and Quarantine, Animal and Plant Health 
      Inspection Service, U.S. Department of Agriculture, 
      Washington, DC.............................................    14
        Prepared statement of....................................    16
    Hatfield, Nina Rose, Acting Director, Bureau of Land 
      Management, U.S. Department of the Interior, Washington, DC    12
        Prepared statement of....................................    13
    Johnson, Darrell, Rancher, Tooele County, State of Utah......    32
        Prepared statement of....................................    33
    Peterson, Carey, Commissioner, Utah Department of Agriculture 
      and Food, State of Utah, Salt Lake City, Utah..............    18
        Prepared statement of....................................    19






 OVERSIGHT HEARING ON MORMON CRICKET INFESTATION IN THE GREAT BASIN OF 
                           THE UNITED STATES

                              ----------                              


                        Thursday, July 19, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
Room 1334, Longworth House Office Building, Hon. Joel Hefley, 
[Chairman of the Subcommittee] presiding.
    Mr. Hefley. The Committee will come to order.
    As you just heard, we have a vote on now. I would like to 
forego the opening statement at this point and let Mr. Hansen 
go because he has some other commitments, and I am not sure he 
will be able to get back to this.
    Mr. Hansen, if you would like to do that, we will try to 
get--I hesitate to use the expression ``get you out of the 
way.''
    [Laughter.]
    Mr. Hefley. But we will get you out of the way, and then we 
will suspend and go vote and come back.

STATEMENT OF HON. JAMES V. HANSEN, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Chairman. Thank you, Mr. Chairman. I really appreciate 
this opportunity because I have some other commitments, and 
this is a very important piece of legislation. I don't think 
the people in the East recognize the problems we have out in 
the West at this particular time. You know, years ago when the 
pioneers first came to the valley, they proposed the same, wipe 
them out, these crickets that we have in front of us. 
Fortunately, the people then were very conservative, and worked 
a lot harder and knew what they were supposed to do. But my 
friend Mr. Johnson here tells me they are finally resurrecting 
their calling, and they are doing a little better out in his 
area in Skull Valley. I think that is very important because, 
you see, the Mormon cricket is kind of an ugly thing.
    Mr. Chairman, I know there are going to be a lot of facts 
and statistics brought out today regarding what they are doing, 
but let me make the point that probably has been made, and that 
is the analogy between this and payment in lieu of taxes.
    The Federal Government owns a big share of Utah. They have 
the Forest Service. They have the BLM. They have reclamation. 
They have Indian tribes. They have military reservations. And 
years ago, they said, look, if we are going to live out there, 
we have got to pay our share, and our share for living there is 
so much money. So they came up with payment in lieu of taxes. 
Folks sitting here from Nevada and Colorado and Utah agree, if 
you are going to live there, you have got to pay your share. 
People come out and they use that ground and they recreate on 
it, they start fires, they litter, and if they break a leg, our 
people have to pick them up. But here in our counties, here 
they are sitting there with a minor, minor tax base. But the 
Federal Government hasn't been paying their share. Instead of 
paying that 25 cents an acre that they are supposed to pay, 
they just kind of ignored it. We have authorized it, and 
somehow we can't get the money appropriated.
    Well, I have an analogy here where we have got our people 
in the State, Director of Agriculture Cary Peterson is with us 
and Mr. Wallentine from the Farm Bureau with us, we have 
ranchers with us and other people, mayors with us who are going 
to testify. But I am talking more about Federal people here. 
Your share on this one is these crickets come up right next to 
our State and our private property, and leave the Federal area 
and come over and ruin everything we have got, as well as what 
you have got. So it just seems to me that it is only fair that 
the Feds pay their share on this one, also. It is part of their 
problem. They helped create it. Someone has got to move in and 
take care of this. We could wipe out agriculture in some of our 
areas if we are not up to taking care of this particular issue.
    Up in the northern end of the State, I was talking to a 
rancher up there, and he said they were even eating the stucco 
off of his house. It is like one of these movies that you see 
where these things come in and they just take over an entire 
area and you can't do much about it. So it is a problem of 
strain. It is a problem of predators, whatever you can use to 
take care of this thing.
    I really appreciate, Mr. Chairman, you holding this 
meeting. I think it is something that many of our Eastern 
friends don't realize. The enormity of it, the problems that we 
have are things they don't consider, and I would hope that we 
can take care of some of these things to stop this invasion, 
which I guess is the worst we have had in a while, in 60, 70 
years. It is a very serious problem, and it is going to require 
something to wipe this out in this part of the century.
    Now, we sit in these hearings. We hear it from Florida. We 
hear it from the Midwest. We hear it from other areas. Everyone 
has got a problem and we react. It is about time we react to 
our friends out in the Western areas of the States that many of 
us sitting here are living in.
    I appreciate the opportunity to be here, and I would ask 
unanimous consent that my written statement, whatever it says, 
be put in the record.
    Mr. Hefley. Without objection, and, Mr. Hansen, one thing 
you left out. I understand they taste like chicken.
    Is that true?
    [Laughter.]
    The Chairman. If you would like to eat one, there is a live 
one back here, and you can report to the full Committee.
    [The prepared statement of Mr. Hansen follows:]

  Statement of The Honorable James V. Hansen, Chairman, Committee on 
                               Resources

    I am very pleased that Mr. Hefley has agreed to hold this oversight 
hearing on behalf of the farmers and ranchers in Utah and throughout 
the Great Basin states that are dealing with the devastating outbreaks 
of Mormon Crickets and Grasshoppers. This outbreak, now under 
Declaration of Emergency by the Governor of Utah, is considered to be 
the worst in over 60 years, spreading to over 1.5 million acres in Utah 
alone. These insects, who breed undisturbed and untreated on the vast 
tracts of BLM and Forest Service land and then spread to neighboring 
state and private land, are devouring the crops and rangeland to the 
tune of what is expected to be at least $25 million dollars worth of 
damage. I believe where the federal government owns land it has an 
obligation to take care of it and to ensure that it does not have a 
negative impact upon its neighbor's land. I understand that we will 
hear today from our State Agriculture Commissioner Cary Peterson, Mayor 
Anderson of Oak City, and Darrell Johnson, a fifth generation rancher 
from Rush Valley regarding the very real impact of these infestations. 
I am pleased to have them here and look forward to hearing their 
testimony. I know timely and adequate funding has been a continual 
issue of concern for us as we have tried to fight these crickets over 
the last couple of years and I remain committed to working with the 
appropriate committees and the Departments of Agriculture and Interior 
to secure funding.
                                 ______
                                 
    Mr. Hefley. The Committee will stand in recess while we go 
vote, and we will come right back.
    [Recess.]
    Mr. Hefley. The Committee will come back to order.
    I have just been reminded that this is the first in a 
series of seven hearings on biblical pestilence. We are 
starting with crickets. We are going to do frogs for my friend 
down here, and we are going to work through the seven.
    We want to welcome everybody to the oversight hearing. We 
do have a number of witnesses today, so I will try to keep my 
opening remarks brief.

  STATEMENT OF HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Hefley. We are going to focus on an incredible and 
disastrous infestation of Mormon crickets and other destructive 
grasshoppers that have literally taken over many parts of the 
West this year. Mormon crickets have long been part of the 
Great Basin area and have been a nuisance to agriculture-
related activities for much of that time. As the crickets' 
natural population cycle has fluctuated, so has their impact. 
The Animal and Plant Health Inspection Service has historically 
been responsible for conducting a number of activities like 
insect population surveys, implementing cooperative programs, 
preparing cost-share agreements, and obtaining sufficient 
pesticides and pesticide delivery equipment to control insect 
outbreaks on public lands.
    Until 1994, treatment of Mormon crickets was a line item in 
the agriculture appropriations bill through which APHIS 
received funding. However, because the grasshopper infestations 
were less severe during the early 1990's, appropriations were 
reduced and the program was no longer funded. Someone must have 
told the grasshoppers that the appropriations were stopped 
because they have reached epidemic proportions in the last few 
years as the money to control them has been eliminated.
    We are meeting today to learn more about this problem and 
to learn what steps need to be taken to assure that this type 
of infestation is not allowed to occur next year and in years 
to come.
    I want to thank Chairman Hansen for bringing this issue to 
the Committee's attention and for pushing for this hearing 
today.
    I also would like to thank all the witnesses for coming 
today, especially those who had long distances to travel, and I 
look forward to their testimony.
    [The prepared statement of Mr. Hefley follows:]

   Statement of The Honorable Joel Hefley, Chairman, Subcommittee on 
              National Parks, Recreation and Public Lands

    Good morning everyone and welcome to the oversight hearing. We have 
many witnesses testifying today so my opening remarks will be brief.
    The hearing today will focus on the incredible and disastrous 
infestation of Mormon crickets and other destructive grasshoppers that 
have literally taken over many parts of the west this year.
    Mormon crickets have long been a part of the Great Basin area and 
have been a nuisance to agriculturally related activities for much of 
that time. As the crickets'' natural population cycle has fluctuated, 
so has their impact. The Animal and Plant Health Inspection Service 
(APHIS) has historically been responsible for conducting a number of 
activities like insect population surveys, implementing cooperative 
programs, preparing cost-share agreements, and obtaining sufficient 
pesticides and pesticide delivery equipment to control insect outbreaks 
on Public Lands.
    Until 1994, treatment of Mormon crickets was a line item in the 
Agriculture Appropriations bill through which APHIS received funding. 
However, because the grasshopper infestations were less severe during 
the early 1990's, appropriations were reduced and the program was no 
longer funded. Someone must have told the grasshoppers that the 
appropriations were stopped because they have reached epidemic 
proportions the last few years as the money to control them has been 
eliminated.
    We are meeting today to learn more about this problem and to learn 
what steps need to be taken to ensure that this type of infestation is 
not allowed to occur next year or in years to come.
    I want to thank Chairman Hansen for bringing this issue to the 
Committee's attention and for being here with us today. I would also 
like to thank all of our witnesses for coming today as well, especially 
those who had long distances to travel and I look forward to their 
testimony.
                                 ______
                                 
    Mr. Hefley. At this time, I would like to ask unanimous 
consent that Senator Bennett be permitted to sit on the dais 
following his statement if he would like to. Without objection, 
so ordered.
    Now I yield to our ranking member, Mrs. Christensen.

STATEMENT OF HON. DONNA M. CHRISTIAN-CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I am going to be 
brief today so that we can hear the testimony regarding the 
serious problem that is plaguing many of our Western States.
    For those who live in urban areas or whose livelihood is 
not dependent on agriculture or ranching, it is easy to 
underestimate the threat posed by pests like the Mormon 
cricket. However, for Western farmers and ranchers, this and 
other species of grasshoppers can be a devastating problem. 
Mormon crickets feed on more than 400 species of plants and can 
destroy millions of acres of crops during a serious 
infestation. Such destruction can bankrupt farmers and destroy 
rangeland used for cattle grazing. Clearly, given the amount of 
federally owned land in the West, any strategy to combat these 
pests must involve cooperation between the public and the 
private land managers. In addition, Federal funding allocated 
to address this problem must be adequate.
    I want to also welcome those who have come to testify 
today, and I look forward to hearing your testimony.
    Thank you, Mr. Chairman.
    Mr. Hefley. Mr. Gibbons, did you have a statement?

  STATEMENT OF HON. JIM GIBBONS, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Gibbons. Thank you very much, Mr. Chairman.
    Representing the 2nd Congressional District of Nevada, 
which is 99.8 percent of the State, an area of about 110,000 
square miles directly adjacent to the State of Utah, this 
infestation of Mormon crickets affects Nevada as well. And we 
have it all across the northern part of Nevada, from north of 
Reno and the Red Rock area in Washoe County all the way through 
Elko and Elko County, which abuts up to Utah.
    The State of Nevada, of course, relies heavily on the 
Federal Government inasmuch as that 90 percent of the State of 
Nevada is federally managed. In addition to that, the State 
director of the Bureau of Land Management indicated to me in a 
conversation that the amount of money that he has to address 
this problem is about $66,000. Now, $66,000, Mr. Chairman, is 
woefully inadequate to cover 110,000 square miles of area.
    Many times we have heard over the course of our discussions 
in this Committee the sensitivity that this Committee has to 
species of animals that roam freely in the West, including the 
wild horse, in addition to cattle grazing and crop farming that 
we have also become acutely aware of the impact.
    But when you look at the ecosystem for a lot of wild 
species of animals that we pride ourselves in and treasure, 
this insect is going to have a devastating impact on those 
animals.
    What frightens me on the far end of the spectrum, Mr. 
Chairman, is the fact that we don't want to go to the extreme 
of making this insect an endangered insect species. But we do 
need to get it under control. As you will be able to tell from 
some of these photographs here, it not only is a nuisance but 
it is a danger--a danger to the ecosystem for a lot of our 
wildlife, a lot of our farm production and ranch production in 
the State of Nevada. We depend, as I said earlier, that the 
Federal Government have--on the resources. The State of Nevada 
depends on the Federal Government as well for programs and 
assistance to address this, and we certainly hope that this 
Committee and the members of this Committee will see to it that 
we handle this in the same fashion as we would a crisis of the 
magnitude that affects other areas of this country, whether it 
is a hurricane in the Southeast affecting farmers in the 
Southeast or fires that we have out West, or in the South this 
year due to drought systems.
    This insect is creating a serious problem, and I would hope 
that this Committee and the people who are going to address 
this issue understand the fact that we are seriously interested 
in finding a solution, and maybe we can direct our Federal 
Government to providing the necessary resources to help out.
    I thank the Chairman.
    Mr. Hefley. Any other Committee member who has a statement 
they would like to make?

   STATEMENT OF HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. I recognize the seriousness of the problem, 
and I appreciate the statement of the gentleman from Nevada, 
Mr. Gibbons.
    Before I came here, Mr. Chairman, I was a school teacher, 
and I always teach a unit on American Indians. And American 
Indians, when their food source ran low, would eat 
grasshoppers. I don't know if they were Mormon crickets, but I 
guess maybe if they were out in that region--and we found out 
that crickets and grasshoppers ounce for ounce have 10 times 
the amount of protein as beef. While not recommending a new 
change in agriculture for a food source--and they don't taste 
very good, either, so that probably wouldn't catch on. But I 
hope we can find out from this hearing that there are things 
that we can do in a reasonable way to protect the livelihood of 
people in the West and manage this ecosystem with some 
appropriateness and scientific understanding of how it all 
works.
    I yield back. Thank you.
    Mr. Hefley. Senator Bennett will be our first panel. 
Senator, we had a discussion with Congressman Hansen before you 
arrived as to whether or not they taste like chicken. Maybe you 
can help clear that up for us in light of what Mr. Gilchrest 
has just suggested that you do out there, that you raise them 
as a crop rather than try to get rid of them.
    Senator Bennett?

STATEMENT OF HON. ROBERT BENNETT, A UNITED STATES SENATOR FROM 
                       THE STATE OF UTAH

    Senator Bennett. Thank you very much, Mr. Chairman. I 
cannot from personal experience give you any testimony with 
respect to the taste or nutrients of--
    Mr. Hefley. Well, what good are you then?
    [Laughter.]
    Senator Bennett. I can share with you a story that came 
from one of my colleagues, and I hope this will demonstrate 
that I am of some value.
    We were debating an issue and I shall not disclose which 
issue it was, but one of my colleagues, Senator Lauch 
Faircloth, from North Carolina, who is very well known for his 
somewhat salty vocabulary, described this particular bill. He 
says, ``It is just like a June bug.'' He says, ``When you are 
driving down the street on a motorcycle and your mouth is open 
and the June bug flies in your mouth, you just swallow it and 
keep on going. But if you take that sucker home and put it in a 
Mason jar and look at it for a couple of weeks, there is no way 
in the world you can get it down.''
    Now, he was talking about a particular bill, which he said 
that the more we looked at it, the uglier it became. But I 
think that particular metaphor would apply to someone who would 
be attempting to make a meal out of Mormon crickets. They are 
about the size of my thumb. They are not small insects. And 
they climb up stocks of wheat--yes, you have one there, good. 
They climb up stocks of wheat, bite off the head, which causes 
the wheat to fall, and thus makes it a little more efficient in 
the way they can devastate crops than just staying there and 
eating them themselves. They can go through in a true carpet of 
devastation and wipe out crops with incredible and frightening 
efficiency.
    I appreciate your holding the hearing this morning to talk 
about this because it is a crisis that the people of Utah are 
facing, and it has significant implications for large portions 
of the State.
    I would like to thank right up front Mayor Anderson of Oak 
City and Darrell Johnson of Rush Valley and Utah's Commissioner 
of Agriculture, Cary Peterson, who will be appearing on 
subsequent panels. I want to thank them for coming all the way 
to Washington to share their experiences. Maybe one of them 
could tell you what a cricket would taste like, but I wouldn't 
put a lot of money on that.
    Right now, the numbers, which you may already have seen but 
that I will repeat for emphasis, 1.5 million acres of land in 
18 of Utah's 29 counties are being impacted by this year's 
infestation of crickets, and most of the impact is a severe 
one. It is estimated this is the worst infestation since the 
1940's, and damage to crops and property will reach $25 
million.
    Thousands upon thousands of acres of crops in the past year 
have been decimated by these insects. They are capable of 
consuming 38 pounds of vegetation each over their life span. So 
as you look at that little plastic-encased bug, you can 
understand how efficient they are in terms of destroying 
things.
    Not only are they physically destructive to crops, they 
have a psychological impact on the people of Utah. Children are 
afraid to go out and play in areas where there are crickets. 
People are concerned about health and safety, and the Utah 
Department of Transportation has been requested to determine if 
the crickets and grasshoppers are creating traffic problems on 
the roads.
    Now, we have reached the stage in this year in the life 
cycle of these insects where they have begun to lay eggs, and 
at this point, it seems all we can do is hope for a very long 
cold winter that kills most of the eggs in the ground. We can 
also hope for that because it would be a good thing for the 
Olympics. But we like to get two benefits from one effect.
    Now, there is something that Federal land management 
agencies can do to prepare for next year besides pray for snow. 
In the past, a lack of funding has been blamed, and rightly so, 
for limiting the control efforts of APHIS, BLM, and the U.S. 
Forest Service. This last Tuesday, I was able to convince my 
fellow Senators to appropriate $4 million for APHIS to combat 
this problem next year in Utah and other affected areas, so we 
hope the funding problem will go away.
    I would like the U.S. Forest Service and the BLM, for whom 
I have great respect and with whom my office has a wonderful 
working relationship, to understand my expectations for next 
year going along with the money that has been appropriated to 
fulfill those expectations. I believe that some of the land 
management agencies were caught flat-footed and not prepared 
for what was coming. So I would hope that we would look not 
only to solve the problem this year but be prepared to deal 
with what looks as if it will come next year.
    I am disappointed that there are threats of lawsuits by 
some groups headquartered outside of the State of Utah who have 
no real understanding of the impact of this, and I would hope 
that those lawsuits would, in fact, not materialize.
    So, in summary, Mr. Chairman, I believe that the BLM and 
the Forest Service should begin as soon as possible to lay down 
any necessary environmental documentation, have the required 
public participation necessary to establish control measures 
against the crickets and the grasshoppers. We cannot have a 
repeat of 2001. I consider that simply unacceptable, which is 
why I pushed for the appropriation that has now been 
established.
    With that, Mr. Chairman, I thank you and the Committee for 
holding the hearings and for your interest in this issue, 
which, while admittedly is parochial, is nonetheless very 
severe.
    [The prepared statement of Senator Bennett follows:]

 Statement of The Honorable Robert F. Bennett, a U.S. Senator from the 
                             State of Utah

    Good Morning. I thank the Chairman for holding this critically 
important hearing today on the current crisis the people of Utah are 
facing from the infestation of Mormon crickets and grasshoppers 
throughout significant portions of the state. I appreciate the 
committee giving me the opportunity to speak on this issue. I also 
would like to thank Mayor Anderson of Oak City and his wife , Darrell 
Johnson of Rush Valley, and Utah's Commissioner of Food and Agriculture 
Cary Peterson for traveling to Washington to share their experiences 
and insights with the Congress on this grave situation.
    Approximately 1.5 million acres of land in 18 counties are being 
impacted by this year's infestation of crickets and grasshoppers, most 
of them severely. It is estimated that this will be the worst 
infestation since the 1940's and damage to crops and property will 
reach $25 million. Thousands upon thousands of acres of crops and 
pasture have been decimated by these two inch long insects which are 
capable of consuming 38 pounds of vegetation over their limited life 
span. Not only are the crickets physically destructive they are also 
having a psychological impact on the residents of Utah. Children are 
afraid to go out and play and people are concerned about public health 
and safety. The Utah Department of Transportation has even been 
requested to determine if the crickets and grasshoppers are creating a 
problem on the roads.
    Unfortunately, we are reaching the stage in the life cycle of these 
insects when they have begun to lay their eggs. At this point, it seems 
all we can do is to pray for a very long cold winter that will 
hopefully kill most of the eggs in the ground. There is, however, 
something the federal land management agencies can do to prepare for 
next year. In past years, a lack of funding has been blamed, and 
rightly so, for limiting the control efforts of APHIS, BLM, and the 
USFS. This past Tuesday, I secured $4 million for APHIS to combat this 
problem next year in Utah and other affected states. I fully expect 
that this money will be released to APHIS in a timely manner so that it 
will be able to prepare for spring and summer 2002 during autumn and 
winter 2001. Additionally, I would like the USFS and the BLM, whom I 
have great respect for and a very solid working relationship with, to 
understand my expectations for next year. I believe Utah's land 
management agencies were caught flat-footed this year. I am greatly 
disappointed with their response to threatened lawsuits by some of 
Utah's out-of-touch environmental groups. I believe the BLM and USFS 
should begin as soon as practicable any environmental documentation and 
the required public participation necessary to take appropriate control 
measures against crickets and grasshoppers. We cannot have a repeat of 
2001, it is simply unacceptable.
    Again, I thank the chairman and Committee on Resources for holding 
today's hearings.
                                 ______
                                 
    Mr. Hefley. Thank you, Senator.
    Senator, on the issue in Colorado, where I life, we don't 
have the Mormon crickets. We do on a cyclical basis have 
plagues of grasshoppers, and they sometimes come--it almost 
looks like a thunderstorm cloud moving across the land. And 
when they have eaten everything green that they can find, you 
will find them eating fenceposts, which sounds outrageous. It 
is hard to imagine. But we find that.
    How would you compare this infestation to what I have just 
described?
    Senator Bennett. The Mormon crickets have historically had 
the capacity to do that, but they don't fly. They come down 
over the land like a black carpet, devastating everything in 
its way in the manner that you described.
    Now, I have not heard of any eating fenceposts, but they 
are voracious eaters, and anything that is in their way is 
problematical. And, of course, the reason they are named Mormon 
crickets is because this particular pest threatened the 
survival of the first Mormon pioneers when they came into the 
valley, and they were immune at that time to any kind of 
available human intervention. The Mormon pioneers beat them 
with shovels, dug trenches and filled the trenches with water, 
and pushed them into the water to drown them. When they felt 
the field was gone and nothing could be saved, they set fire to 
the field in an effort to eradicate the crickets.
    None of these things worked. The only reason they were 
saved is because the California gull, which is the Utah State 
bird, interestingly, so named as the Utah State bird because of 
this experience, the California gulls showed up in massive 
numbers, harking to the comment you made about almost darkening 
the sky, and settled on the fields. The pioneers thought, okay, 
we are done for for good because whatever grain the crickets 
don't eat, the gulls will. And then they discovered that the 
gulls were not eating grain, they were eating crickets. And the 
gulls would gorge themselves on crickets, fly to the shores of 
the Great Salt Lake, regurgitate everything they had eaten, fly 
back, and feast on the crickets again. It took about 2 weeks of 
this kind of massive non-human intervention to rid the Salt 
Lake Valley of crickets and literally save the lives of those 
early pioneers.
    So that is why they are called Mormon crickets because it 
was the Mormons who had the first real experience with them. 
What we need obviously now are more sea gulls, but in the 
absence of that, we will take the money.
    Mr. Hefley. Do they still have the sea gulls coming in to 
do this?
    Senator Bennett. The sea gull is a protected bird in Utah. 
As I say, it is the State bird. And it is illegal for you to 
shoot a sea gull in Utah. But, no, we do not have the herds of 
sea gulls. There are still sea gulls around Great Salt Lake, 
around other water bodies, but given the rise of cities and 
other population centers, the flocks of sea gulls are not as 
huge as they once were.
    Mr. Hefley. Mrs. Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman. I don't have any 
questions of the Senator. I just want to welcome you. It is 
always great to have one of our colleagues from the other side 
of the Capitol here.
    And as I said in my opening statement, given the amount of 
federally owned land in Utah, we agree that the Federal 
Government should make sure that the funding is adequate to 
assist in this problem that has been so devastating to the 
ranchers and farmers.
    Senator Bennett. Thank you very much. I appreciate your 
concern, and thank you for your welcome.
    Mr. Hefley. Does the Committee have any additional 
questions? Mr. Gilchrest?
    Mr. Gilchrest. Senator, you just relayed to us a 
fascinating story, especially about the gulls showing up. I 
would assume that this Mormon cricket is indigenous to that 
area of the West, has been around for eons of time. But I also 
assume that the gull that showed up in that historical story 
you relayed to us is also indigenous to that region of the 
West. I ask the question because I live on the Eastern Shore of 
Maryland. If you go back less than 20 years, we didn't have any 
osprey, and we basically didn't have any bald eagles. We also 
lost the Baltimore oriole--it just never showed up anymore 
because it lost its habitat--and a number of other near-
tropical birds.
    Certainly what we have done in the last decade or two was 
to re-establish their habitat. Now we have not swarms of 
osprey, but wherever you go, you can see osprey. The bald eagle 
population has just mushroomed in the area, and the Baltimore 
orioles are coming back and so on.
    Now, I recognize that it is important for us to establish 
appropriations to deal with this issue as fast as we can. Is 
there any understanding or perspective or movement to bring 
back that natural gull population? And if you did, could it 
come back in any numbers to be effective to this cricket?
    Senator Bennett. I am going beyond my area of expertise, 
but what understanding I have of it, the gulls are around the 
Great Salt Lake, which is a body of salt water. And the 
original infestation of crickets that I have described that the 
gulls intervened on and saved the lives of the early Mormon 
pioneers took place in the Salt Lake Valley, which is 
relatively close to the Great Salt Lake and the gull's natural 
habitat. The infestation of crickets that we are talking about 
now is in other places, so that we can't really enlist the 
gulls.
    Yes, the population of sea gulls in Utah is still quite 
large. Many a motorist complains a little about finding a 
reminder of the presence of sea gulls overhead on his car in 
the morning. But we do what we can to see to it that that 
habitat is preserved.
    As I say, the experience is part of our State lore, and the 
California gull is the Utah State bird and is honored and 
protected. So we don't take lightly the question of hanging 
onto the habitat for the gull.
    Mr. Gilchrest. Thank you, Senator.
    Thank you, Mr. Chairman.
    Mr. Hefley. Further questions? Yes?
    Ms. McCollum. Mr. Chair, Senator, this is more of a comment 
than a question. I have eaten grasshoppers, but they were 
chocolate-covered. So if you do try a Mormon cricket, I suggest 
really premium chocolate.
    Senator Bennett. It would take quite a quantity to tempt 
me.
    Ms. McCollum. But Minnesota, where I come from, even though 
I am from the Twin Cities area, we are not a very large State. 
We are very, very interdependent on mining, our Twin Cities 
industries, and our farming industry. And I served on the 
Resources Agricultural Finance Committee for a while, and we 
dealt with many infestations for our wheat farmers in the North 
Dakota-Minnesota Red River Valley. And I hope that we can come 
up with a multifaceted solution, one to take care of your 
short-term needs now, but also one that will address long-term 
environmental sustainability needs in the future.
    I learn something new every day being on this Committee, 
Mr. Chair, and I look forward to learning more how to help my 
fellow States, and that research will in turn help my State in 
the future.
    Senator Bennett. Thank you very much. We would invite you 
to come to Utah and get a flavor of the environmental efforts 
that are going on out there. Many times we don't get credit for 
it outside our own borders among people who don't understand 
the unique circumstance that we face.
    Mr. Hefley. Senator Bennett, thank you for your testimony, 
and before you arrived, we did make it permissible for you to 
sit at the dais if you would like to. If you have time, we 
would be glad for you to participate in the hearing. If you 
don't have time, we thank you for coming over.
    Senator Bennett. Thank you for your courtesy, Mr. Chairman, 
and normally I would accept your invitation. I now have to go 
make a quorum in order to confirm some of President Bush's 
nominees. That is our principal role in the minority these 
days, to make a quorum.
    Mr. Hefley. You better get over there and do that, then.
    Senator Bennett. Thank you.
    Mr. Hefley. Thank you very much.
    Mr. Hefley. The second panel will be composed of Nina Rose 
Hatfield, who is Acting Director of the Bureau of Land 
Management for the Department of Interior; Dr. Richard Dunkle, 
Deputy Administrator, Animal and Plant Health Inspection 
Service for the USDA; Mr. Cary Peterson, Commissioner, Utah 
Department of Agriculture and Food, the State of Utah; the 
Honorable Michael Anderson, who is the mayor of Oak City, Utah; 
and Darrell Johnson, who is a rancher, Tooele County, State of 
Utah.
    And, Commissioner, I understand you would like to show us a 
video to start with. Is that correct?
    Mr. Peterson. Yes.
    [Videotape played.]
    Mr. Peterson. With your permission, Mr. Chairman, these are 
news clips from national news networks who came to look at the 
crickets in our State this year. Not only U.S. news companies 
but the BBC and a German news company were very interested in 
the cricket population, as was the New York Times.
    Mr. Johnson. I would like to say we live about 60 miles 
from Salt Lake, and we had a news crew come out, do a video 
filming, and they were sending the tape to Germany because of 
the interest that was created on some of our national networks.
    Mr. Hefley. Boy, that truly is a plague.
    Ms. Hatfield, would you like to begin?

  STATEMENT OF NINA ROSE HATFIELD, ACTING DIRECTOR, BUREAU OF 
 LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, 
                              D.C.

    Ms. Hatfield. Thank you, Mr. Chairman and members of the 
Subcommittee. I appreciate the opportunity to appear before you 
today on the subject of Mormon crickets and grasshoppers and 
their effects on the public land. The Bureau of Land Management 
certainly looks forward to working with the Committee on this 
important issue.
    BLM recognizes that the widespread outbreak of rangeland 
grasshoppers can affect millions of acres. This year in Nevada, 
we estimate that about 62,000 acres have been infested, while 
Utah estimates that last year over 1.5 million acres of land 
were infested.
    In addition to denuding the land of grasses, forage, and 
shrubs, the crickets and grasshoppers can graze rangelands or 
fire rehabilitation projects all the way to the ground. This 
precludes the use of the land by other animals, endangers the 
success of our new rehabilitation projects, and paves the way 
for additional invasive species.
    I have a couple of pictures here that will demonstrate the 
size of some of the infestation. This particular picture was 
taken in Idaho, and then here is an example of how the 
grasshoppers and crickets can actually eat the vegetation all 
the way to the ground.
    Now, while we are certainly concerned about the impact of 
the Mormon crickets and grasshoppers on the public lands 
themselves, we are equally troubled by the fact that the 
crickets and the grasshoppers do traverse the public lands and 
impact privately owned croplands and lawns. We have the mayor 
of Oak City here, but these are some photographs taken in Oak 
City where you can see the heavy infestation of the crickets 
right on the shrubs and around the homes in Oak City.
    Now, over the last 15 years, BLM has worked with our 
partners, including the USDA Animal and Plant Health Inspection 
Service, or APHIS, to control both Mormon crickets and 
grasshoppers. And our partnership with APHIS is certainly 
critical to the Federal approach to try to control the cricket 
and grasshopper infestation.
    Our recent emphasis has been on treating public lands that 
are adjacent to private croplands or rangelands so that we 
might be a better neighbor. Last year, Congress appropriated a 
supplemental $1.5 million to BLM to address this project. And 
over the last 2 years, we have spent about $685,000 in planning 
and surveying and trying to respond to emergency outbreaks. But 
certainly, as has been noted earlier, to be effective these 
control treatments require timeliness. Treating too late in the 
life cycle is certainly not biologically effective. And so we 
on the Federal side have to be proactive in completing early 
egg counts, preparing the environmental assessments that are 
necessary before we do the treatments, and doing the treatments 
themselves.
    In BLM, we are continuing to look at new products and new 
ways of using the products to assure a timely and affordable 
way of controlling the Mormon cricket and grasshopper. We 
certainly look forward to working with both our public and 
private partners and this Committee to try to bring this 
infestation into a level that can be considered to be 
controlled.
    Mr. Chairman, that would conclude my opening remarks, and 
we would be glad to answer any questions. And I believe you 
have my prepared remarks for the record.
    [The prepared statement of Ms. Hatfield follows:]

   Statement of Nina Rose Hatfield, Acting Director, Bureau of Land 
              Management, U.S. Department of the Interior

    Mr. Chairman, members of the subcommittee, I appreciate having the 
opportunity to appear before you on the subject of Mormon crickets and 
grasshoppers and their effects on public lands. The Bureau of Land 
Management (BLM) welcomes Congressional interest on this issue and we 
look forward to working with the Committee's members on this important 
subject.
    Mormon crickets and grasshoppers are members of the Class Insecta, 
Order Orthoptera, which contains several hundred species, although only 
about 35 species are perennial pests. As we have seen this year, Mormon 
crickets and grasshoppers have the potential for sudden and explosive 
population increases, which can be so extreme that all vegetation is 
consumed. The economic effects of extreme infestations affect us all, 
whether we live on a farm or ranch, in the suburbs, or in the city. 
Severe infestations threaten the productivity of rangelands, wildlife 
habitat, and adjacent agricultural land. When outbreaks occur they can 
also pose health hazards to both humans and grazing animals.
    Consider the following effects of Mormon crickets and grasshoppers 
on various regions of the country:
    <bullet> LThe Nevada Department of Agriculture is preparing to make 
an ``Emergency Declaration'' as a result of the Mormon cricket 
infestation. The state will be using Carbaryl bait as needed to keep 
these insects away from private residences and off of public roads and 
highways, as a matter of private property protection and public safety. 
It estimates that 62,000 acres are infested, including over 17,000 
acres of BLM-managed lands.
    <bullet> LThe Utah Department of Agriculture estimated that in the 
year 2000, there were over 1.5 million acres of public and private 
lands infested with Mormon crickets and grasshoppers. During 2001, in 
Oak City, children have been afraid to go outside because infestations 
of Mormon crickets have numbered as high as 400-500 in some locations, 
such as on garage walls and crawling up the sides of homes and across 
lawns. Some Mormon crickets have died in the city's water supply, 
thereby making it a health and safety concern to local residents, 
because of pathogens that these insects can carry. As a result of the 
severity and impacts of these pests, Governor Leavitt has recently 
declared the Mormon cricket infestation to be an Agricultural 
Emergency-the third in the past three years.
    <bullet> LThus far during 2001, the Utah Department of Agriculture 
estimates that grasshoppers in Utah have infested an estimated 600,000 
acres across 24 counties. Grasshoppers have also grazed several of 
BLM's fire rehabilitation project sites to the point where they are 
unusable by ranchers. BLM is considering replanting these fire 
rehabilitation projects. The cost of doing so is estimated at $50.00 
per acre.
    A few examples that illustrate the harmful impacts of Mormon 
cricket and grasshopper infestations on public lands include:
    <bullet> LEconomic effects: Mormon crickets and grasshoppers can 
diminish yields by 25 to 40 percent on range and croplands. The Utah 
Department of Agriculture also estimates that as of June, 2001, the 
agricultural losses from Mormon crickets and grasshoppers in Utah have 
been estimated at over $25 million.
    <bullet> LNative plant communities: Mormon crickets, grasshoppers, 
and drought often cause additional stress to native plant communities. 
Noxious weeds may increase in numbers because of the competitive 
advantage they are given due to the preferential grazing of native 
plants by these pests.
    <bullet> LWildlife habitat: Even while functioning as a prey base 
for some species such as sea gulls, large infestations of Mormon 
crickets and grasshoppers can have a dramatic impact on the plants that 
grazing animals eat. These pests can devastate the habitat of wildlife 
species including rabbits, deer, elk, and wild horses.
    <bullet> LEcosystem function: Where the local impacts of the Mormon 
cricket and grasshopper infestations are large, the stage is set for 
invasive plants such as cheatgrass or knapweeds to increase their hold 
on the ecosystem.
    To be fully successful in the fight against Mormon crickets and 
grasshoppers, any effort must bring together a complex group of 
stakeholders that includes government agencies, private landowners, and 
industry. BLM has a very good working relationship with State 
Departments of Agriculture and our sister federal agencies such as the 
Animal Plant Health Inspection Service (APHIS), the U. S. Fish and 
Wildlife Service, and the U.S. Forest Service.
    To cite several examples of such cooperation:
    <bullet> LIn the BLM Carson City and Winnemucca Field Offices, 
personnel are processing Pesticide Use Proposals that would allow 
treatment by private citizens of Mormon cricket bands on public lands 
adjacent to private lands at risk.
    <bullet> LThe BLM's Spokane, Washington District has cooperated 
with APHIS, on successfully detecting and controlling Mormon cricket 
egg beds, resulting in a significant reduction in the cricket 
population.
    In an effort to combat the spread of Mormon crickets and 
grasshoppers on BLM and adjacent private lands, the BLM spent over 
$685,000 during 1999 and 2000 for planning, surveying and responding to 
emergency outbreaks.
    Available resources for this effort in 2001 have been directed 
toward the following two areas:
    <bullet> LEarly Detection - In Nevada and Idaho, BLM has joined 
with State Departments of Agriculture and APHIS in preseason 
inventories.
    <bullet> LControl Treatments - BLM has supplied the products 
necessary for treatment, where and when environmental constraints have 
been met in Idaho, Nevada and Utah.
    The BLM is working with other federal, state, local, and tribal 
governments and with private landowners to help treat and, when 
possible, manage serious infestations of Mormon crickets and 
grasshoppers. Future generations of Americans deserve to inherit 
ecologically healthy and productive public lands, not vast landscapes 
denuded and infested with Mormon crickets and grasshoppers that make 
the public and private lands unfit for people, livestock, and wildlife. 
We must be committed to developing partnerships to address the 
infestation of Mormon crickets and grasshoppers so that the spread of 
these pests can be prevented or controlled. For that reason, we welcome 
the increasing awareness and understanding of this problem by 
legislators at the national level.
    Thank you, Mr. Chairman. I would be happy to answer any questions.
                                 ______
                                 
    Mr. Hefley. Thank you very much.
    Dr. Dunkle?

  STATEMENT OF RICHARD DUNKLE, DEPUTY ADMINISTRATOR FOR PLANT 
 PROTECTION AND QUARANTINE, ANIMAL AND PLANT HEALTH INSPECTION 
  SERVICES, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C., 
  ACCOMPANIED BY CHRISTOPHER PYRON, DEPUTY REGIONAL FORESTER, 
           INTERMOUNTAIN REGION, U.S. FOREST SERVICE

    Mr. Dunkle. Thank you, Mr. Chairman. My name is Dr. Richard 
Dunkle, and I am the Deputy Administrator for Plant Protection 
and Quarantine of the Animal and Plant Health Inspection 
Service with the United States Department of Agriculture.
    Mr. Chairman and members of the Subcommittee, I want to 
thank you for this opportunity to testify on behalf of the 
United States Department of Agriculture, focusing on the 
history of the activities that USDA has conducted for Mormon 
crickets and other grasshoppers in the Great Basin, and also 
our efforts to combat current and future grasshopper and Mormon 
cricket outbreaks in this area. Accompanying me today is Mr. 
Christopher Pyron, Deputy Regional Forester for the 
Intermountain Region of the Forest Service as well.
    Grasshoppers and Mormon crickets have caused widespread 
devastation throughout the Great Basin. Although several other 
statements have included these figures, let me do so again. In 
Utah alone, Mormon crickets and grasshoppers have infested more 
tan 1.5 million acres and an estimated $25 million in crop 
damage may occur. In fact, Mormon crickets can feed on more 
than 400 species of plants, and a single Mormon cricket can 
consume an amount of rangeland forage equal to 38 pounds of dry 
weight per acre.
    Throughout the Western United States, there is excellent 
cooperation between the USDA, other Federal agencies, State 
agencies, local governments, and private landowners in 
combating Mormon cricket and grasshopper outbreaks. This year, 
stressed financial resources have been used to their fullest 
extent. The ominous fact is that each female Mormon cricket can 
lay about 86 eggs in the round and, if natural conditions favor 
hatching next spring when treatment would be most effective, 
the Mormon cricket outbreaks in 2002 could be even more 
widespread, severe, and destructive.
    During the mid-1980's, USDA's Animal and Plant Health 
Inspection Service, which we call APHIS, took a lead role in 
monitoring and suppressing grasshoppers and Mormon crickets. In 
1986, Congress, in response to destructive grasshopper 
outbreaks, appropriated $18 million to APHIS for a grasshopper 
suppression program. In addition, Congress created no-year 
funding for continued grasshopper suppression programs by 
stipulating that $16 million remain available until expended. 
This funding mechanism provided APHIS with immediate access to 
resources for suppressing economically significant grasshopper 
populations. From 1987 through 1992, Congress appropriated $5 
million annually for the no-year grasshopper reserve fund.
    As the lead Federal agency, APHIS conducted population 
surveys, implemented cooperative programs with States and other 
cooperating organizations, prepared cost-share agreements and 
escrow accounts, recruited and trained seasonal staff, and 
obtained sufficient equipment and materials, such as vehicles, 
pesticides, and pesticide storage facilities. In addition, 
APHIS provided the essential environmental assessment 
documentation for the suppression program.
    In 1990, APHIS received an emergency supplemental 
appropriation of $6.8 million to cooperate with States and 
individuals to suppress grasshoppers on CRP--Conservation 
Reserve Program--and other lands. The grasshopper populations 
during this time were kept under control, so the no-year 
grasshopper reserve exceeded $16 million in 1993.
    Since 1994, no new appropriations have been provided for 
the grasshopper and Mormon cricket program. Since then, all 
grasshopper-related activities, including survey and 
suppression, have been funded from the accumulated no-year 
reserve, which was exhausted in fiscal year 1999, and 
additional funds from the appropriated reserve for 
contingencies.
    In an attempt to conserve the use of funds, APHIS has 
conducted only crop protection activities since 1995. The goal 
of crop protection programs is to protect high-value crops by 
treating strips of Federal rangelands where these lands border 
the crop. Such programs provide short-term, immediate 
suppression of grasshopper populations migrating from Federal 
lands onto cropland. Crop protection programs do not include 
any long-term rangeland management. However, since 1999, only 
the APHIS contingency fund, which must also cover other 
emergencies in APHIS, has been available to cover grasshopper 
and Mormon cricket suppression.
    For example, in fiscal year 2000, the agency, using APHIS' 
contingency funds, prepared to conduct traditional surveys and 
earmarked funds for grasshopper and Mormon cricket suppression. 
However, the populations were not as high as projected, and 
most of the suppression dollars were returned to the 
contingency fund.
    In fiscal year 2001, APHIS has taken $300,000 from this 
fund to carry out grasshopper and Mormon cricket surveys and 
other program planning activities. However, due to other high-
priority needs, no additional APHIS money will be available for 
grasshopper and Mormon cricket suppression. Accordingly, 
funding for suppression on public lands to protect rangeland 
will require resources from the responsible Federal land 
management agencies, such as BLM, Forest Service, and the 
Bureau of Indian Affairs.
    The new Plant Protection Act requires the Secretary of 
Agriculture to pay 100 percent of the cost of grasshopper or 
Mormon cricket control on Federal lands to protect rangeland 
out of funds specifically appropriated for grasshopper control 
or transferred from the Department of the Interior under 
section 417 of the act. Our current policy is that all program 
costs, including surveys, site-specific environment 
assessments, and treatments, will be paid by the Federal land 
management agency. As a result, Federal land management 
agencies will be required to do the site-specific project level 
work, including environmental assessments that would tier to 
the programmatic EIS currently being prepared by APHIS. I 
should note that current Forest Service policy requires that 
the Forest Service personnel participate in the development of 
all pesticide-use plans and direct those activities on National 
Forest System lands.
    Thank you for this opportunity to testify, and I will be 
happy to take any questions that you may have.
    [The prepared statement of Mr. Dunkle follows:]

    Statement of Dr. Richard Dunkle, Deputy Administrator for Plant 
Protection and Quarantine, Animal and Plant Health Inspection Service, 
                     U.S. Department of Agriculture

    Mr. Chairman and Members of the Subcommittee, I thank you for this 
opportunity to testify on behalf of the U.S. Department of Agriculture 
(USDA) on the history of the activities that USDA has conducted for 
Mormon crickets and other grasshoppers in the Great Basin, and our 
efforts to combat current and future grasshopper and Mormon cricket 
outbreaks in this area. Accompanying me today is Christopher Pyron, 
Deputy Regional Forester for the Intermountain Region of the Forest 
Service.
    Grasshoppers and Mormon crickets have caused widespread devastation 
throughout the Great Basin. In Utah alone, Mormon crickets and 
grasshoppers have infested more than 1.5 million acres and an estimated 
$25 million in crop damage may occur. In fact, Mormon crickets can feed 
on more than 400 species of plants, and a single Mormon cricket can 
consume an amount of rangeland forage equal to 38 pounds dry weight per 
acre.
    Throughout the western United States, there is excellent 
cooperation between USDA, other Federal agencies, State agencies, local 
governments, and private landowners in combating Mormon cricket and 
grasshopper outbreaks. This year, stressed financial resources have 
been used to their fullest extent. The ominous fact is that each female 
Mormon cricket can lay about 86 eggs in the ground, and, if natural 
conditions favor hatching next spring when treatment would be most 
effective, the Mormon cricket outbreaks in 2002 could be even more 
widespread, severe, and destructive.
    During the mid-1980's, USDA's Animal and Plant Health Inspection 
Service (APHIS) took a lead role in monitoring and suppressing 
grasshoppers and Mormon crickets. In 1986, Congress, in response to 
destructive grasshopper outbreaks, appropriated $18 million to APHIS 
for a grasshopper suppression program. In addition, Congress created 
no-year funding for continued grasshopper suppression programs by 
stipulating that $16 million remain available until expended. This 
funding mechanism provided APHIS with immediate access to resources for 
suppressing economically significant grasshopper populations. From 
1987-1992, Congress appropriated $5 million annually for the no-year 
grasshopper reserve fund.
    As the lead Federal agency, APHIS conducted population surveys, 
implemented cooperative programs with States and other cooperating 
organizations, prepared cost-share agreements and escrow accounts, 
recruited and trained seasonal staff, and obtained sufficient equipment 
and materials, such as vehicles, pesticides, and pesticide storage 
facilities. In addition, APHIS provided the essential environmental 
assessment documentation for the suppression program.
    In 1990, APHIS received an emergency supplemental appropriation of 
$6.8 million to cooperate with States and individuals to suppress 
grasshoppers on Conservation Reserve Program (CRP) and other lands. The 
grasshopper populations during this time were kept under control, so 
the no-year grasshopper reserve exceeded $16.5 million in 1993.
    Since 1994, no new appropriations have been provided for the 
grasshopper and Mormon cricket program. Since then, all grasshopper 
related activities, including survey and suppression, have been funded 
from the accumulated no-year reserve, which was exhausted in fiscal 
year 1999, and additional funds from the appropriated reserve for 
contingencies.
    In an attempt to conserve the use of funds, APHIS has conducted 
only crop protection activities since 1995. The goal of crop protection 
programs is to protect high-value crops by treating strips of Federal 
range lands where these lands border the crop. Such programs provide 
short-term, immediate suppression of grasshopper populations migrating 
from Federal lands onto cropland. Crop protection programs do not 
include any long-term rangeland management. However, since 1999, only 
the APHIS contingency fund, which must also cover other emergencies in 
APHIS, has been available to cover grasshopper and Mormon cricket 
suppression.
    For example, in fiscal year 2000, the Agency, using APHIS'' 
contingency funds, prepared to conduct traditional surveys and 
earmarked funds for grasshopper and Mormon cricket suppression 
programs. However, the populations were not as high as projected and 
most of the suppression dollars were returned to APHIS'' contingency 
fund at the end of the fiscal year.
    In fiscal year 2001, APHIS has taken $300,000 from the contingency 
fund to carry out grasshopper and Mormon cricket surveys and other 
program planning activities. However, due to other high priority needs, 
no additional APHIS money will be available for grasshopper and Mormon 
cricket suppression. Accordingly, funding for suppression on public 
lands to protect rangeland will require resources from the responsible 
Federal land management agencies, such as the Bureau of Land 
Management, Forest Service, and the Bureau of Indian Affairs.
    The Plant Protection Act requires the Secretary of Agriculture to 
pay 100 percent of the cost of grasshopper or Mormon cricket control on 
Federal lands to protect rangeland out of funds specifically 
appropriated for grasshopper control or transferred from the Department 
of the Interior under section 417 of the Act. Current APHIS policy is 
that all program costs, including surveys, site specific environmental 
assessments, and treatments, will be paid by the Federal land 
management agency. As a result, Federal land management agencies, such 
as the Department of the Interior's Bureau of Land Management and 
USDA's Forest Service, would be required to do site specific project 
level work, including environmental assessments that would tier to the 
programmatic EIS currently being prepared by APHIS. I should note that 
current Forest Service policy requires that Forest Service personnel 
participate in the development of all pesticide-use plans and direct 
those activities on National Forest System lands.
    Thank you again for this opportunity to testify. I would be happy 
to take any questions that you may have.
                                 ______
                                 
    Mr. Hefley. Thank you very much. Let me just ask a real 
quick question. Does a grasshopper plague and a cricket plague 
tend to go together?
    Mr. Dunkle. From what I understand, normally when we have 
Mormon cricket outbreaks, oftentimes there are also grasshopper 
outbreaks. And the weather conditions seem to favor both.
    Mr. Hefley. I see.
    Mr. Peterson?

STATEMENT OF CARY G. PETERSON, COMMISSIONER, UTAH DEPARTMENT OF 
   AGRICULTURE AND FOOD, STATE OF UTAH, SALT LAKE CITY, UTAH

    Mr. Peterson. Thank you, Mr. Chairman and members of the 
Committee, for the opportunity to discuss this issue with you. 
I am Cary Peterson, Utah's Commissioner of Agriculture and 
Food. My family and I have been in the livestock and farming 
business all of our lives, into the fourth generation.
    I am here on behalf of the people of Utah to request that 
Congress appropriately fund USDA APHIS and their insect control 
program. That program exhausted its funds in 1999, and as a 
result, there is very little or ineffective program in effect 
today to take care of the millions of Mormon crickets and 
grasshoppers from migrating from their hatching grounds, 
primarily on Federal grounds, onto private croplands and 
populated areas.
    Public health and safety is now threatened, as subsequent 
speakers will talk about. Governor Mike Leavitt formed a 
subcabinet task force made up of our department, Health, 
Environment, and Transparency to investigate the human health 
and safety risks of this infestation.
    The infestation triggered an emergency declaration June 4th 
of 2001 by our Governor. Following that action, with the 
authority of Utah law, I activated a Decision and Action 
Committee comprised of Federal, State, local, and private 
interests to address the infestation.
    I draw your attention today, members of the Committee, to 
U.S. Code, Title 7, Section 148f paragraph (d). It established 
a framework for the transfer of funds to the U.S. Secretary of 
Agriculture for Mormon cricket and grasshopper control. 
According to the provisions of the act, requested by the 
affected State, I quote, ``...the Secretary of Agriculture 
shall immediately treat Federal, State or private lands that 
are infested by grasshoppers or Mormon crickets at levels of 
economic infestation...'' And that is a level of eight or more 
per square yard. I have included the text of the entire section 
of that code for your information.
    Currently, there are more than 1.5 million acres infested 
with crickets and grasshoppers in the State of Utah. That 
represents 2,400 square miles, and that is more than the size 
of the State of Delaware. Estimated crop damage this year will 
exceed $25 million.
    Without a consistent and systematic approach to the 
problem, we cannot control this. I draw your attention to the 
large photographs that we have here and that are in the 
Committee room. In many areas, there are acres upon acres, mile 
upon mile, where the density is more than 40 or 50 crickets per 
square yard.
    The State Department of Transportation of the State of Utah 
acknowledges that this is a safety health hazard on our 
highways.
    The insects also destroy valuable forage which is available 
for wildlife and our livestock operations in the State of Utah.
    The State Legislature of Utah has allocated additional 
funds to control State and private land infestations. However, 
three out of every four acres in Utah are federally owned and 
managed. Most of the infestation is on Federal lands or the 
hatching occurs. As the lands dry up after the spring, the 
migration is to the croplands, to the private lands, and to our 
communities.
    Our State's Natural Resources and Agriculture Committee 
heard powerful testimony just 2 weeks ago regarding the human 
health and safety issues of the types of infestations we are 
seeing, as well as the economic losses. The Committee asked our 
attorney general to look at recouping some of the costs in 
actions against the U.S. Government. That is not our preferred 
choice.
    Mr. Chairman, I recommend the following to Congress: that 
funds for the U.S. Department of Agriculture's APHIS and their 
insect control program be appropriated at the level of $8.7 
million for 2002. Action was taken in the Senate this week that 
would give that agency $4 million. I think that is a one-time 
contingency fund. Of that $8.7 million, $3.7 million would be 
an ongoing base for infrastructure and operating expenses, and 
$5 million would go into a no-year fund for emergencies in 
Western States for APHIS to do immediate insect assessment and 
control and for the completion of the environmental 
assessments. The age-old adage that an ounce of prevention is 
worth not a pound but a ton of cure. If we take care of these 
infestations at the hatching beds, we prevent that $25 million 
of devastating economic impact.
    I thank you very much for this opportunity and would be 
pleased to answer any questions.
    [The prepared statement of Mr. Peterson follows:]

  Statement of Cary G. Peterson, Utah Commissioner of Agriculture and 
                                  Food

    Thank you for the opportunity to address this committee Mr. 
Chairman.
    I am Cary Peterson, the State of Utah's Commissioner of Agriculture 
and Food.
    My family and I have been in the cattle business all our lives, and 
I am a former Utah legislator.
    I am here on behalf of the people of Utah to request that Congress 
appropriately fund USDA APHIS's insect control program.
    That program exhausted its funds in 1999, and as a result there is 
no program in place to prevent the millions of Mormon crickets and 
grasshoppers from migrating from their hatching grounds on federal land 
onto valuable croplands and into populated areas.
    Public heath and safety are now threatened, as the previous 
witnesses have explained. Utah Governor Michael Leavitt formed a 
subcabinet-level Task Force of State Health, Environment and 
Transportation Departments to investigate the health and human safety 
risks of this infestation.
    The need for your help is great.
    The infestation triggered a declaration of Agricultural Emergency 
on June 4th, 2001, by Governor Leavitt. Following that action--and with 
the authority of Utah law--(4-35-3 UCA) I activated a Decision and 
Action Committee comprised of federal, state, local, and private 
interests to address the infestation.
    I draw your attention to U.S. Code, Title 7, Section 148f paragraph 
(d). It establishes a framework for the transfer of funds to the U.S. 
Secretary of Agriculture for Mormon cricket and grasshopper control.
    According to a provision of that act; after receiving a request by 
an affected state,
        ``...the Secretary of Agriculture shall immediately treat 
        Federal, State or private lands that are infested by 
        grasshoppers or Mormon crickets at levels of economic 
        infestation...''
    I have included the text of that entire section in the packet I 
gave you.
    We've had crickets and grasshopper infestations in the past, but 
not to this extreme.
    Currently there are more than 1.5 million acres infested with 
crickets and grasshoppers. That represents nearly 2,400 square miles. 
That's larger than the state of Deleware. We estimate that crop damage 
this year will approach $25 million in Utah alone.
    Without consistent and systematic treatment, the problem cannot be 
controlled.
    I draw your attention to these large photographs we have here. At 
times our highways are thick with crickets, posing a traction problem 
for vehicles. In many areas there are acre-upon-acre--mile-upon-mile--
where there are 40 to 50 crickets or grasshoppers per square yard.
    Our State Department of Transportation acknowledges the potential 
safety hazard associated with the high number of crickets and 
grasshoppers on our roads.
    The insects also destroy valuable forage used by wildlife as well 
as livestock.
    The Utah Legislature has allocated additional funding to our 
department for insect control on State and private lands. But 3 out of 
every 4 acres in Utah are federally owned. And most of the insects 
hatch on federal land.
    Our State's Natural Resources and Agriculture Committee heard 
powerful testimony recently regarding the health and human safety 
aspects of the infestations, as well as the economic losses.
    The committee instructed our Attorney General's office to 
investigate any legal action against the USDA to recoup losses caused 
by the insects.
    Mr. Chairman, I recommend the following: That congress fund the 
U.S. Department of Agriculture's Animal and Plant Health Inspection 
Service's insect control program (APHIS) at $8.7 million for fiscal 
year 2002. Of that figure, $3.7 million would be an on-going base for 
infrastructure and annual operating expenses. And $5 million would go 
into a ``no-year'' fund for emergencies for Western states.
    I also seek $100,000 from fiscal year 2001 funds for each of the 
Utah offices of the BLM, USFS and USDA-AHPHIS. These funds would be 
used immediately for insect assessment and control as well as for the 
completion of environmental assessments. The old adage, ``an ounce of 
prevention is worth a pound of cure'' fits well here.
    For every dollar we spend in prevention, we save American tax 
payers many times that amount in federal disaster payments to farmers 
and ranchers.
    I would like to conclude by playing a video-tape of the crickets in 
our state. This video was taken by news crews for the NBC Today Show 
and for ABC's World News Tonight programs.
    Since our outbreak several weeks ago, we have received world-wide 
attention. Including; The BBC in London, England; GMTV in London, 
England; The German News Service; German Televison; as well as the New 
York Times.
    Public awareness of this issue is very high in Utah, and we look to 
you for leadership in finding a solution.
    Thank you for your time.
    I would be happy to answer any questions you might have.
    Attachments:
    <bullet> LUSDA-APHIS Grasshopper Infestation Acreage
    <bullet> LUSDA-APHIS Mormon Cricket Infestation Acreage
    <bullet> LState of Utah Synopsis of insect infestation year 1997-
2000
    <bullet> LU.S. Code Title 7 Sec. 148f
                                 ______
                                 
    [Attachments to Mr. Peterson's statement follow:]
    [GRAPHIC] [TIFF OMITTED] T3963.005
    
    [GRAPHIC] [TIFF OMITTED] T3963.006
    
    [GRAPHIC] [TIFF OMITTED] T3963.007
    
    [GRAPHIC] [TIFF OMITTED] T3963.008
    
    [GRAPHIC] [TIFF OMITTED] T3963.009
    
    Mr. Hefley. Thank you, Commissioner.
    Mayor Anderson?

    STATEMENT OF MICHAEL J. ANDERSON, MAYOR, OAK CITY, UTAH

    Mr. Anderson. Thank you, Mr. Chairman. My name is Michael 
J. Anderson. I am the mayor of the town of Oak City. Our 
population is roughly 750 people. We are located in western 
Millard County. I am employed at the Intermountain Power Plant, 
and I am also a dairyman by virtue of our family business. I 
appreciate you holding this meeting on our behalf.
    Cricket and grasshopper damage in our area is hitting us 
economically and physically. To quote one of our citizens from 
town, she says, ``Mormon crickets in Millard County have not 
only gotten into our town, but also into our houses and into 
our lives.'' They are severely impacting our everyday living 
and our quality of life. In our town, our children won't even 
dare go outside or sleep in their rooms for fear of the big, 
black creatures that are outside in the flowerbeds and the 
gardens and sidewalks, on the eaves of their house.
    The situation also illustrated by the pictures before you, 
one of those pictures that BLM has showed you, those trees that 
they are climbing on comes from the houses on the outskirts of 
our town. You can see it looks like a beehive.
    Our children and others have been so mentally traumatized 
by these creatures that they dominate almost everything we try 
to do. Nearby forest campgrounds are no place of refuge. They 
are all over the trees, the campgrounds, the roads. They are 
totally devastated. You have the spit, the feces from it, and 
everything else that comes with those creatures are all over 
the tables.
    We recently had a religious girls camp up there, about 400 
individuals, and it turned into a real nightmare for them. The 
leaders of the campground ended up crying, going into the 
trailers and crying, so they could go back out and be leaders 
over the girls. But they did stick it out, and we have to 
commend them for that.
    For the first time, crickets and grasshoppers have become a 
public health threat. Just like us, many Western States border 
or are adjacent to Federal lands. We have had crickets in 
Forest Service lands in our area for years, but this is the 
first time that they have ever come into the town, and they 
come into town in waves, as you heard the testimony today. They 
just cover and eat everything ahead of them. They force people 
on the south and east ends of town to even go as far as burning 
their shade and fruit trees. Those trees that are in the 
pictures were burned in an effort for these people to try and 
keep these things from crossing into their property.
    We have also got a creek down the south side of town, which 
you would think would slow them down. But they just climb up 
the willows until their sheer weight bends the willows down, 
and they crawl over each other and cross this water and 
continue into town.
    Our town recently finished a drinking water system upgrade 
with sealed collection boxes on nearby Forest Service land. 
After the upgrade, our water superintendent and I inspected the 
water collection boxes at the spring head. To our amazement, we 
found handfuls of dead and rotting crickets inside the 
collection boxes. Our townspeople were very concerned when they 
heard this, as you can imagine, without knowing what diseases 
these creatures carry or, who knows, what we are exposed to. It 
kind of leaves us hanging out there. This newly discovered 
public health threat has prompted our Governor to appoint a 
task force to find out and help develop a remedy for this. You 
can imagine how our citizens feel about the Federal Government 
not doing anything at all on this land to prevent these things 
from infesting our town.
    Our water storage tanks have also been vented, and we are 
using the smallest screens possible. There is also a 
chlorination house, and all have been penetrated by the 
creatures. They climb up on the tanks in the afternoons to 
catch the last rays of sun, and if you look at our water tanks, 
it looks just like those trees in those pictures that you have 
before you.
    Unless they are controlled in the adjacent Forest Service 
land where their egg-laying and hatching beds are, we have 
found nothing that can keep these creatures out of our 
facilities. As I said, our watershed is on Forest Service land, 
and under current Forest Service policy, there can be no insect 
control within 500 feet of the springs. Without control on the 
Forest Service land above that point--which was not done this 
year--how can we assure the safety and reliability of our water 
system when crickets and grasshoppers infest the hillsides and 
valleys of our watershed? We really have no alternative water 
source.
    Officials of the U.S. Department of Agriculture APHIS 
report that several Western States are experiencing heavy 
cricket and grasshopper damage this year, with the heaviest 
Utah infestation in over 60 years. Also, according to the Utah 
Department of Agriculture and Food, with the heavy egg-lay now 
underway, the prospect looms for an even heavier devastation 
next year, with these repulsive crickets and grasshoppers 
laying eggs right in our town. Only a severe winter would 
reduce the numbers by killing some of the eggs.
    The State of Utah is doing all it can by cost-sharing with 
private agriculture landowners on bait and aerial spray where 
it can be legally used, but no assistance has been available 
within the borders of our town. As we contemplated next year's 
invasion, with eggs laid right at our doorsteps, we feel like 
the little Dutch boy. We are holding our finger in the dike 
while the dike is overflowing all around our head. It seems 
kind of pointless.
    We are here to appeal to this Committee to urge the 
Congress to provide the means for public land agencies to be 
better neighbors and use the proven, effective methods to 
control crickets and grasshoppers on Forest Service and BLM 
land.
    Thank you for your consideration of this request.
    [The prepared statement of Mr. Anderson follows:]

   Statement of The Honorable Michael J. Anderson, Mayor, Oak City, 
                          Millard County, Utah

    Thank you, Mr. Chairman.
    My name is Michael J. Anderson. I am the Mayor of Oak City, a town 
of approximately 850 residents in western Millard County, Utah. I am 
employed at the Intermountain Power Plant and I am also a Dairyman.
    Thank you for holding this hearing. Cricket and grasshopper damage 
in our area is hitting us hard economically and physically. To quote a 
statement from one of our citizens, ``Mormon crickets in Millard County 
have not only gotten into our town, but into our houses and into our 
lives''. They are severely impacting our everyday living and our 
quality of life. In our town our children don't even dare to go outside 
or sleep in their own rooms for fear of the big, black creatures they 
see all over their lawns, sidewalks, flowerbeds and gardens. The 
situation illustrated by the pictures before you and attached to my 
written statement, brings to mind biblical plagues. Our children and 
others have been so mentally traumatized by these creatures that they 
dominate almost everything we try to do. Nearby Forest service 
campgrounds are no place of refuge either. Campground tables and 
restrooms are covered with crickets, cricket feces and saliva from the 
crickets. A recent church girls camp became a miserable experience for 
400 local girls due to the crickets.(Show crickets)
    For the first time, crickets and grasshoppers have become a public 
health threat. Just like us, many western towns are surrounded by or 
are adjacent to federal lands. We have had crickets in Forest Service 
lands in our area for years, but this is the first year they have 
descended on our town in unbelievable waves, taking every almost living 
thing in their path, forcing people on the south and east sides of town 
to burn their shade and fruit trees in an unsuccessful effort to keep 
the creatures out of their homes and yards. A creek near town should 
have stopped them, but they just go up the willows until their weight 
bends them down and they cross over each other and move on into town.
    Our town recently finished a drinking water system upgrade with 
sealed collection boxes in a nearby canyon on Forest Service land. 
After the upgrade, our Water Superintendent and I inspected the water 
collection boxes at the spring head. To our amazement we found handfuls 
of dead and rotting crickets in the water inside the collection boxes. 
Our townspeople are very concerned. What diseases do these creatures 
carry? What are our citizens exposed to? This newly discovered public 
health threat has prompted our Governor to appoint a task force to find 
out, and to help develop a remedy. Imagine how our citizens feel about 
the federal government's failure to control crickets on adjacent public 
lands!
    Our water storage tanks have to be vented and we are using the 
smallest screens possible. There is also a chlorination house. All have 
been penetrated by the creatures. Unless they can be controlled on the 
adjacent Forest Service land where their egg-laying and hatching beds 
are, we have found nothing that can keep these creatures out of these 
facilities. As I said, our watershed is on Forest Service land. And 
under current Forest Service policy, there can be no insect control 
within 500 feet of the springs. Without control on the Forest Service 
land above that point (which was not done this year) how can we assure 
the safety and reliability of our water supply when crickets and 
grasshoppers infest the hillsides and valleys of our watershed ? We 
really have no alternative to these water sources.
    Officials of the U.S. Department of Agriculture APHIS report that 
several western states are experiencing heavy cricket and grasshopper 
damage this year, with the heaviest Utah infestation of crickets in at 
least 60 years. According to the Utah Department of Agriculture and 
Food, with the heavy egg-lay now underway, the prospect looms of an 
even heavier devastation next year, with these repulsive crickets and 
grasshoppers laying eggs right in our town. Only a very severe winter 
would reduce the numbers by killing some of the eggs.
    The State of Utah is doing all it can by cost-sharing with private 
agriculture landowners on bait and aerial spray where it can be legally 
used but no such assistance has been available within the borders of 
our town. As we contemplate next year's invasion, with eggs laid right 
on our doorsteps, we feel like the little Dutch boy holding his finger 
in the dike while the dike is overflowing. Without control on adjacent 
public land, it is a losing battle. We are here to appeal to this 
committee to urge the congress to provide the means for public land 
agencies to be better neighbors and use the proven, effective methods 
to control crickets and grasshopper on Forest Service and BLM land.
    Thank you for your consideration of our request
    Attachments:
    1. LPhotographs of typical cricket infestation in Oak City, Utah
    2. LWritten statement by Mrs. Janet Lindquist, Oak City, Utah 
resident
    3. LWritten statement by Bruce Lovell, former Oak City Mayor and 
Millard County Commissioner
                                 ______
                                 
    The attachments to Mr. Anderson's statement follow:
    [GRAPHIC] [TIFF OMITTED] T3963.001
    
    [GRAPHIC] [TIFF OMITTED] T3963.002
    
    [GRAPHIC] [TIFF OMITTED] T3963.003
    
    Mr. Hefley. Thank you very much.
    Darrell Johnson, the rancher.

  STATEMENT OF DARRELL JOHNSON, RANCHER, RUSH VALLEY, TOOELE 
                     COUNTY, STATE OF UTAH

    Mr. Johnson. Thank you, Mr. Chairman and members of the 
Committee. I am Darrell Johnson. Along with my wife Carol, I 
own and operate the Johnson Ranch in Rush Valley, Tooele 
County, Utah. My sons, Ed and Brian, and their wives and my 
parents, who were the former owners, also have a significant 
interest in our nearly 7,000 acres of all private, deeded, and 
leased ranch land. We are cow-calf operators, running about 250 
head of cows year-round. Ours is a ranch with a pioneer family 
heritage running back to 1856 when Luke S. Johnson was the 
first settler in our valley, after having arrived in Utah with 
the earliest Mormon pioneers. His dugout for a home on 40 acres 
of land has been developed by succeeding generations into a 
ranch that I am proud to say was recognized last year as the 
Region 6 National Stewardship Award winner from the National 
Cattlemens Association.
    The private grazing land on our ranch is very productive 
after years of chaining and burning brush and seeding with 
carefully selected grasses that on some areas now produce over 
1,4000 pounds of forage per acre. We have abundant wildlife on 
our land, and we have a large spring that provides irrigation 
for about 1,500 acres in our community. We are continually 
working to improve our place for future generations.
    I say all of this to help you understand how devastating 
the cricket and grasshopper infestation is to my operation and 
those of neighboring ranchers and farmers. For several years, 
we have had damage from crickets and grasshoppers in our area 
and in much of Utah, but our most severe damage began last 
year. In my area, private land owners are mostly surrounded on 
several sides by Forest Service and BLM land. Last year, 
crickets moved from Federal land in Skull Valley over Johnson 
Pass to about 2,000 acres of our deeded grazing land, which we 
use for summer feed. After the damage on that land, they laid 
eggs there and on other nearby Federal land where they hatched 
and brought us this year's terrible infestation, the worst I 
have ever seen.
    I started trying to control the crickets on my land this 
April, locating the most dense concentrations and circling them 
with approved bait. It soon became futile. The crickets, now 
being followed by grasshoppers, ate our alfalfa to the ground 
and virtually every leaf off the crested wheat grass. There was 
no way I or my neighbors could stop them. The crickets do their 
damage and move on in literal waves to another area and again 
take almost everything in their path, followed now by 
grasshoppers from adjacent public land.
    Our best estimate at this time is that these insects have 
destroyed at least 75 percent of our forage. So if we are to 
stay in business, our only choice is to buy hate to replace 
this feed. To be conservative, I am going to say that my total 
loss of private forage will be 60 percent of my normal yields. 
That converts to at least $15,000 in hay that I will have to 
buy this year that I would not have purchased in any normal 
year.
    Even worse, last year I put down seed on about 370 acres of 
deeded rangeland that would have been a high producer of feed 
this coming year. The crickets have eaten all those plants 
right into the dirt. If those seedlings don't recover, it will 
cost nearly $13,000 to seed it again, not counting the fact 
that I will have to wait another 2 years for any meaningful 
production on that area. I have attached a partial list of 
cricket damage in an adjacent area prepared by the Grantee 
Spring Water Company.
    Mr. Chairman, my story is repeated again and again on Utah 
farms and ranches. We in the West know we must contend with 
drought, variable markets, and a heavy layer of government 
regulations. But this insect infestation, coming in large 
measure from uncontrolled or inadequately controlled 
populations on adjacent public land, is an element that we 
alone cannot overcome. We appreciate the efforts of our Utah 
Department of Agriculture and Food to reduce cricket 
populations on State-owned land and some cost-share money for 
bait or spray on private land. But, again, an army of insects, 
hatched and grown to traveling size on public land, is more tan 
we can deal with unless Federal land managers can control them 
before they move onto our land. So I add my voice of that to 
others who are appealing to Congress to give our neighboring 
public land managers the tools to be good neighbors.
    I would just like to add that we have received some help 
from the sea gull population. They were a little late in 
coming, but for about 3 weeks we have had huge flocks of sea 
gulls in there. We are about 35 miles from the Great Salt Lake, 
and they are starting to do their share. We need a lot more of 
them.
    I thank you for listening. We hope that you can help. Thank 
you.
    [The prepared statement of Mr. Johnson follows:]

            Statement of Darrell Johnson, Rush Valley, Utah

    Thank you, Mr. Chairman. I am Darrell Johnson. Along with my wife 
Carol, I own and operate the Johnson Ranch in Rush Valley, Tooele 
County, Utah. My sons Ed and Brian and their wives and my parents, who 
were the former owners, also have a significant interest in our nearly 
7,000 acres of all-private, deeded and leased ranch land. We are cow-
calf operators, running about 250 cows year-round. Ours is a ranch with 
a pioneer family heritage running back to 1856 when Luke S. Johnson was 
the first settler in our valley, after having arrived in Utah with the 
earliest Mormon pioneers. His dugout for a home on 40 acres of land has 
been developed by succeeding generations into a ranch that I'm proud to 
say was recognized last year as the Region 6 National Stewardship Award 
winner from the National Cattlemen's Beef Association.
    The private grazing land on our ranch is very productive after 
years of chaining and burning brush and seeding with carefully selected 
grasses that on some areas now produce over 1,400 pounds of forage per 
acre. We have abundant wildlife on our land and we have a large spring 
that provides irrigation for about 1,500 acres in our community. We are 
continually working to improve our place for future generations.
    I say all this to help you understand how devastating the cricket 
and grasshopper infestation is to my operation and those of my 
neighboring ranchers and farmers. For several years we have had damage 
from crickets and grasshoppers in our area and in much of Utah, but our 
most severe damage began last year. In my area private land owners are 
mostly surrounded on several sides by Forest Service and BLM land. Last 
year crickets moved from federal land in Skull Valley over Johnson Pass 
to about 2,000 acres of our deeded grazing land, which we use for 
summer feed. After the damage on that land, they laid eggs there and on 
other nearby federal land where they hatched and brought us this year's 
terrible infestation; the worst I've ever seen.
    I started trying to control the crickets on my land this April, 
locating the most dense concentrations and circling them with approved 
bait. It soon became futile. The crickets, now being followed by 
grasshoppers, ate our alfalfa to the ground and virtually every leaf 
off the crested wheat grass. There was no way I, or my neighbors, could 
stop them. The crickets do their damage and move on in literal waves to 
another area and again take almost everything in their path, followed 
now by grasshoppers from adjacent public land.
    Our best estimate at this time is that these insects have destroyed 
at least 75 percent of our forage. So if we are to stay in business, 
our only choice is to buy hay to replace this feed. To be conservative, 
I am going to say that my total loss of private forage will be 60 
percent of my normal yields. That converts to at least $15,000 in hay 
that I will have to buy this year that I would not have purchased in 
any normal year.
    Even worse, last year I put down new seed on about 370 acres of 
deeded range land that would have been a high producer of feed this 
coming year. The crickets have eaten all those plants into the dirt. If 
those seedlings don't recover, it will cost nearly $13,000 to seed it 
again, not counting the fact that I'll have about two years to wait for 
any meaningful production on that area. I have attached a partial list 
of cricket damage in an adjacent area prepared by the Grantee Spring 
Water Company.
    Mr. Chairman, my story is repeated again and again on Utah's farms 
and ranches. We in the West know we must contend with drought, variable 
markets and a heavy layer of government regulations. But this insect 
infestation, coming in large measure from uncontrolled or inadequately-
controlled populations on adjacent public land, is an element that we 
alone cannot overcome. We appreciate the efforts of our Utah Department 
of Agriculture & Food to reduce cricket populations on state-owned land 
and some cost-share money for bait or spray on private land. But again, 
an army of insects, hatched and grown to traveling size on public land 
is more than we can deal with unless federal land managers can control 
them before they move onto our land. So I add my voice to that of 
others who are appealing to congress to give our neighboring public 
land managers the tools to be good neighbors.
    Thank you for listening. We hope you can help.
                                 ______
                                 
    [An attachment to Mr. Johnson's statement follows:]
    [GRAPHIC] [TIFF OMITTED] T3963.004
    
    Mr. Hefley. Boy, you are an outstanding group of witnesses, 
and you certainly paint the picture for us, and it is a very 
bleak and ugly and sad picture that you paint, particularly if 
you are trying to make a living on the land, as our last 
witness is.
    Let me ask you, are there some crickets every year and some 
grasshoppers every year, but in a cyclical fashion you have 
these plagues every so many years, depending on the weather and 
so forth? Is that the way it works?
    Mr. Peterson. Yes, Mr. Chairman. There will always be 
crickets and grasshoppers in abundance for the wildlife and the 
other species that prey upon them--sage grouse, the gulls, and 
others. And following this kind of an infestation and that kind 
of feed for predators, we get an increase of fox, we get an 
increase of coyotes, we get an increase of moles and other 
rodents that will do well on these kind of insect populations.
    And so we get another plague following this because of the 
abundance of feed that these predators have that prey upon the 
crickets and grasshoppers. But there are always pockets of 
those. We haven't seen this type of infestation and the 
excessive migration that we are seeing this year.
    Mr. Hefley. You do have other predators, though, besides 
the sea gulls who do feed on them? They just can't keep up with 
it?
    Mr. Peterson. That is right.
    Mr. Hefley. Yes, yes. Is there anything that can really 
control the problem? It is a little hard for me to tell from--
there are a lot of things you are doing, but is there anything 
that can really control the problem? Mr. Dunkle?
    Mr. Dunkle. Yes, I think there is. Our environmental impact 
statement that we are preparing now will lay out all of the 
primary mitigations.
    First of all, it is very important, as Mr. Peterson has 
stated, that we do the proper surveys, because we do egg mass 
surveys in the fall and then we do similar surveys in the 
spring. And the purpose is to locate these pockets and then to 
try to guesstimate the potential size of the population that we 
are going to deal with next year and where this population will 
begin to migrate, and to try to keep that within a manageable 
limit.
    And then there are certain chemical alternatives, the 
newest one now being a compound called Demolin, which is an 
environmentally friendly compound. It does not eradicate these 
populations, but it does significantly lower them so that there 
is minimal effect on wildlife, on other predators, and so 
forth.
    So we do have the control tactics, we do have the surveying 
methods, and then when we are looking at management on public 
lands, the other Federal agencies have additional management 
options that they will use on rangeland and so forth that will 
tier into this whole program.
    Mr. Hefley. Do you have environmental extremist groups--I 
think Senator Bennett mentioned that there are threats of 
lawsuits, but do you have environmental extremist groups 
throwing their bodies in front of the sprayers or whatever they 
do, trying to keep you from doing anything? Or is most 
everybody in agreement something needs to be done?
    Ms. Hatfield. Mr. Chairman, at least in BLM's case, we have 
been challenged about the use of some of these substances in 
Idaho. And at least there we are not using the Demolin until 
APHIS can complete their EIS and we can tier off of their 
environmental impact statement. But certainly there has been 
some concern by some groups about the impact of the use of some 
of these insecticides on other animals in the system.
    But, for the most part, we are using Demolin in other 
States, and we are also using some other insecticides that have 
proved to be useful and helpful in the control of the pests. 
But it is a balance, and we do have to do the environmental 
reviews before we can take care of the problem.
    Mr. Johnson. Mr. Chairman, may I add that one of the 
members of the environmental group made a comment to the local 
paper that farmers out there should know better than to be 
farming next to BLM land. My family was there before there was 
a BLM in 1856, and I am the fifth generation that has been 
there. It isn't, you know, by choice that we would choose not 
to farm there. It is because that is where the resources are to 
be able to farm and do what we do.
    Mr. Hefley. You know, Mr. Johnson, that does show the 
complete lack of understanding that some of these groups and 
some of these people have. When they opened up the West, they 
opened it up for homesteading, and the BLM land was the land 
that was left over, land that no one wanted because it didn't 
have the resources to do a productive farming operation on. So 
what do you do? I mean, if you pick the productive land, that 
is what is left over. It just shows a complete lack of 
understanding.
    Mr. Gibbons?
    Mr. Gibbons. Thank you very much, Mr. Chairman. Indeed, as 
we have heard today, this is a dramatic and a desperate problem 
for many people, whether you are a rancher, farmer, or 
apparently a person inside a community, in a city, and a home 
and a family.
    My question is either to the Department of Agriculture or 
the Department of Interior: How long is your EIS going to take 
before you can address this problem?
    Mr. Dunkle. We have been working on our EIS. We are going 
to be publishing it as a proposal in August, receive public 
comment through September. We are hoping to have our 
environmental impact statement completed by the 1st of January 
of 2002 at the latest.
    Mr. Gibbons. And then how long after that would you be able 
to address the problem? As I heard from your testimony, once 
the cricket lays eggs in the soil, you do these surveys in the 
fall and the spring and determine what the outbreak is going to 
be. What type of action can you take once the infestation of 
this magnitude covers such a large area--1.5 million acres in 
Utah, 65,000 in Nevada and growing? How many dollars is it 
going to take? How many man-hours? What is the magnitude of the 
problem you face at that point?
    Mr. Dunkle. First of all, I think our goal is to focus on 
timely survey to locate these populations and these pockets of 
critters and to predict where they will go and how big these 
migrations will be so that we can time our treatments to 
prevent the massive outbreaks that you are seeing pictures of 
here today. And if we can get this back down to a manageable 
program, then the magnitudes that we have been working with in 
the past from some of the testimony I gave earlier in regard to 
the no-year fund and so forth, it is about a $5 to $8 million a 
year program. And this keeps it overall under pretty good--I am 
talking Federal funds now, but keeping this under a very good 
management protocol throughout the Western United States.
    Mr. Gibbons. So you are talking of annual funding of about 
$8 million, which hasn't been funded since 1994.
    Mr. Dunkle. That is correct.
    Mr. Gibbons. Is it the obligation of the Federal Government 
to address this infestation on private property as well as 
public property?
    Mr. Dunkle. You know, as has come out, there is a 
relationship between private and public lands when it comes to 
managing this population holistically. What we try to do is 
focus on tactics that minimize the impact of these crickets and 
grasshoppers onto private lands. The migrations, the 
populations build up predominantly on public sector property, 
and then they boil out and they migrate into private properties 
and so forth. And so the tactics that we do on the Federal 
sector have a direct benefit to managing these populations on 
the private sector.
    Mr. Gibbons. Well, Dr. Dunkle, let me say that I have read 
Mr. Peterson's testimony, and he cites the U.S. Code in here, 
Title 7, Section 148f, paragraph (d), which establishes the 
framework for funding for fighting the Mormon cricket. And 
obviously it quotes, ``...the Secretary of Agriculture shall 
immediately treat Federal, State or private lands that are 
infested by grasshoppers or Mormon crickets at levels of 
economic infestation...'' So obviously the law has been created 
to require you to address the problem on Mr. Johnson's ranch as 
well as the BLM. So it is not just simply--or public land, 
excuse me, Federal land. So it is not just the benefit flowing 
over to those private lands. It requires the U.S. Government to 
address the infestation on private lands.
    That, I would hope, is the direction that you also consider 
your responsibility to be in as well.
    Mr. Dunkle. I have to make a point in regard to that 
particular piece of testimony, because I think it now conflicts 
with the new Plant Protection Act. And I may need some of my 
staff to confirm this, but the way the Plant Protection Act now 
reads, when all of the authorities of the USDA APHIS were 
consolidated, I think the only authority that we have is to 
focus on public rangeland. And so what our tactic has been over 
the past years, in particular since 1994, has been to treat 
public rangeland in strips that adjoin private sector to keep 
these migrations from moving over into the private sector.
    Mr. Gibbons. Would you mind providing this Committee with a 
legal assessment with regard to the combination of your 
responsibilities with regard to Section 148f, Title 7 of the 
U.S. Code for this Committee?
    Mr. Dunkle. Yes, sir. I would be glad to.
    Mr. Gibbons. Let me also say, Mr. Chairman, it appears that 
we have a dual-fold funding responsibility here. One, of 
course, is the economic damage that has taken place due to the 
current and existing infestations that we haven't been able to 
address, causing substantial economic harm to many of these 
individuals, much as would a flood, a fire, or any other 
natural disaster. So that is part of it.
    But we also have this ongoing requirement and 
responsibility to adequately fund the effect of addressing this 
infestation funding in years at the $8 million level. I 
certainly hope that we can convince our colleagues to join us 
in this effort. I look forward to working with the Committee.
    I want to thank the members of this panel for taking time 
out of their busy lives. Many of you have had to travel a long 
way, and I know you seem to think that there are only three of 
us up here that you are talking to. But we hear you and the 
record will adequately reflect your comments and your concerns, 
and we will do our utmost to convince and work with our other 
colleagues on the seriousness of this issue.
    I want to thank you, Mr. Chairman, for this opportunity.
    Mr. Hefley. Mr. Peterson?
    Mr. Peterson. Mr. Chairman, may I make a comment to the 
Congressman's point?
    Mr. Hefley. Sure.
    Mr. Peterson. Weather would be the best help we could have 
to break this cycle for next year.
    Mr. Gibbons. Mr. Peterson, we are very powerful here in 
Congress, but we are not that powerful.
    [Laughter.]
    Mr. Peterson. If you would regulate or legislate the 
weather to break that pattern and then after that, when find 
and locate those very intense hatching beds, if we can do the 
control work while they are in the nymph stage in those heavy 
infested areas, we can control this extreme migration that we 
have seen. Absent that ability, both financially and with the 
environmental threats--you touch them and we will take you to 
court--we have lived with that kind of threat. Not so much the 
laying down in front of the spray truck, but the threat of 
going to court if you carry out the EA. And I think we have to 
be above and beyond that for the reasons that you have heard.
    The Bureau of Land Management and APHIS have been 
tremendous partners in this effort this year. I recognize that 
and thank them for that.
    Mr. Gibbons. My question would be on these eggs, Mr. 
Peterson, that we talk about, where the eggs were laid. Not 
always are they on public land. They are oftentimes on private 
land and have come over from public land to infest private 
land. So the combination of trying to address this issue must 
also--and that is the point I was trying to make--must also 
include addressing the infestations that are in that nymph 
stage on private lands; otherwise, we are never going to get a 
hold of this issue.
    Mr. Peterson. Exactly.
    Mr. Hefley. We will, however, tell Chairman Hansen that you 
would like us to do something about the weather, and he tells 
us he is all-powerful. So I think maybe we can get something 
done.
    [Laughter.]
    Mr. Hefley. Mr. Cannon?
    Mr. Cannon. You know, I was going to say that we only have 
three people up here, but we are the smartest three because we 
know we can't legislate and get the result that we would want.
    Mr. Chairman, I would ask unanimous consent that my opening 
statement be included in the record.
    Mr. Hefley. Without objection.
    Mr. Cannon. Thank you.
    [The prepared statement of Mr. Cannon follows:]

 Statement of The Honorable Chris Cannon, a Representative in Congress 
                         from the State of Utah

    Thank you, Mr. Chairman, for holding this hearing to examine 
solutions to the worst infestation of Mormon crickets experienced by 
Utah in 60 years. The devastation caused by the crickets has worried 
many of my constituents and has caused financial hardships to others. 
IN the 1980's, Congress was effective in addressing this problem. This 
year, however, the Federal Government has been slow to act.
    This problem cannot be controlled by the people of Utah because the 
crickets hatch on federal lands and then they hop to farmland. Last 
year over 590,000 acres in Utah were infested with cricket population 
in excess of eight insects per square yard, and 24 of Utah's 29 
counties were affected. In addition to destroying crops these insects 
contaminate local water supplies once they die.
    The infestation of crickets is predictable based on regional 
climate. This February's edition of The Utah Farm Bureau News issued a 
warning of the upcoming infestation of crickets, predicting possible 
the worst in 60 years. Due to the string of mild winters in the past 
few years, the catastrophic infestation we are experiencing was 
predicted months in advance. The prediction parallels the reality 
facing farmers and residents of Utah as they deal with the nearly 2 
million acres currently infested by the crickets. This predictability 
should allow us to solve the problem before it reaches crisis 
proportions.
    These pests are most easily controlled during the early stages of 
their life cycle. This year, in an attempt to thwart the destruction of 
the crickets, officials at the Utah Department of Agriculture and Food 
distributed a limited amount of bait used to control the infestation. 
However, this bait was in short supply compared to the large population 
of crickets.
    Since the crickets come from federal land, the federal government 
must be a partner in controlling them. This hearing will help to begin 
the process of finding solutions to alleviate the problems associated 
with the Mormon crickets. I would especially like to thank Booth 
Wallentine for the work he has done to bring this issue before this 
body. I look forward to hearing from our witnesses.
                                 ______
                                 
    Mr. Cannon. And I would like to thank our great folks from 
Utah for coming out, Mr. Johnson, Mr. Anderson, and 
Commissioner Peterson, our Commissioner of Agriculture. He has 
done an incredible job over the last several years in the State 
of Utah. We appreciate your being here. And also Mr. Dunkle and 
my dear friend, Nina Rose Hatfield, who has been through the 
battles with me in the ancient past--not too ancient. You are 
much younger than--
    Ms. Hatfield. I was going to say, not too ancient, sir.
    [Laughter.]
    Mr. Cannon. I take it, Ms. Hatfield, that you support the 
APHIS request for $8.7 million?
    Ms. Hatfield. Well, we certainly think that the memorandum 
of understanding that we have with APHIS makes a workable 
system and one that really makes sense for the Federal partners 
in that they have an environmental impact statement that we can 
tier off of so it is less expensive for us to do the 
environmental planning that we need to do. And at the same 
time, they have the expertise to actually have the people doing 
the surveying and doing the treatment, and that allows, I 
think, a reasonable system in terms of delivering, in terms of 
trying to deal with this infestation. And certainly the cog in 
the wheel here needs to be that they have adequate funding to 
carry out their part of the overall system.
    I think the BLM, you know, feels that we have money to 
support, but they actually are the leaders in terms of carrying 
out the program, and they need to be adequately funded.
    Mr. Cannon. In the case of Mr. Johnson, he has spent 
$15,000, $20,000, something like that, $15,000 just in 
incremental hay costs. Is there any Federal pocket out there 
that is responsible to compensate him for the damage that 
resulted from our failures at the Federal level?
    Ms. Hatfield. If there is, I am unaware of it, sir, but I 
will certainly be glad to look at it, unless it would be 
something like the Tort Claims Act, and I don't think this--I 
think this would be a difficulty under that act.
    Mr. Cannon. I might just point out that the Federal 
Government has immunity from lawsuits, and so we actually have 
a Committee that deals with both immigration and claims--odd 
combination. That is, when American citizens are hurt and have 
a claim, there is a way legislatively to solve that problem. 
And that ought to be considered since this is such a widespread 
and painful problem there.
    We talked earlier about litigation over these issues, and 
you mentioned, Mr. Dunkle, that there is some litigation in 
Idaho. Are you aware of the Utah Environmental Congress lawsuit 
to halt spraying on Forest Service lands in the Uintah Basin--
the Uintah National Forest, that is?
    Mr. Dunkle. I am personally not aware of it.
    Mr. Pyron. I am Chris Pyron, the Deputy Regional Forester 
from Utah, and my understanding of the situation is that we 
were told that if we tried to go forward with a categorical 
exclusion so we could take suppression actions on Forest 
Service lands, that we would be challenged in court. We checked 
with our office of general counsel, and they confirmed that we 
were on shaky ground on using the categorical exclusion. That 
is why we were not able to treat Forest Service grounds in the 
Uintah National Forest this year.
    We have corrected that problem for next year. We have set 
aside money to make sure that we could do the appropriate 
environmental analysis, and we will have that in place to 
compare it to the APHIS EIS.
    Mr. Cannon. And would you describe what a categorical 
exclusion means?
    Mr. Pyron. A categorical exclusion provides for not having 
to go through certain documentation in support of the 
management decision that you would have to do if you did an 
environmental assessment or environmental impact statement. In 
fact, it just cuts down the time that it takes to process the 
action by quite a bit. When we discovered that we would have to 
go through an EA, an environmental analysis, we simply did not 
have time to get that process completed before the window had 
expired for treating the Mormon cricket or grasshopper this 
year.
    Mr. Cannon. Thank you very much for that.
    Could I just ask, Dr. Dunkle, could you explain--Mr. 
Peterson mentioned the nymph stage. When are these beasts 
vulnerable, and what happens if you don't do it in a timely 
fashion?
    Mr. Dunkle. I think the most vulnerable period of their 
life cycle is when the eggs are hatching and when these insects 
are in their early stages of development, the nymphal stage, 
when they are probably about an inch or less.
    Mr. Cannon. And above that, are they just less resistant--I 
am sorry, more resistant to the chemicals?
    Mr. Dunkle. Yes.
    Mr. Cannon. So then you have to have chickens or sea gulls 
or something like that.
    Mr. Dunkle. Right, right. And so they are very vulnerable 
when they are very young and when there is not all that much 
forage out and so forth, so the treatments are much more 
effective.
    Mr. Cannon. Thank you.
    I yield back, Mr. Chairman.
    Mr. Hefley. Thank you very much.
    What is the life cycle? I don't know if we have talked 
about that. Both the life cycle of the infestation when it 
comes like this, and the life cycle of the individual critter. 
Does it live for a month or a week or--
    Mr. Dunkle. As I understand it--and I have some of my staff 
here in case I drift into areas that I shouldn't be talking 
about. But my general understanding is that the eggs hatch in 
the early spring and the insect can pretty much stay alive 
through late summer, early fall. And so what they are doing is 
they are rapidly eating forage and growing and they are 
developing their capacity for egg laying and reproduction. Then 
as they consumer the forage, then they begin to really lay 
their eggs again and start the life cycle over. So it is sort 
of a one-generation-per-year thing. This is pretty much I think 
what happens.
    Mr. Hefley. About a month or a month and a half or 
something would be an individual's life span probably, is that 
correct?
    Mr. Dunkle. Well, they are coming out in March and April.
    Mr. Hefley. So a lot more than that.
    Mr. Dunkle. Those in that jar emerged in March and April, 
and so they are still--
    Mr. Hefley. Yes.
    Mr. Johnson. From my observation, we had crickets hatching 
in late March, the last 2 weeks in March. It was a rather warm 
spring, a warm winter, and they were hatching in March. And we 
still have the large adult crickets which are laying eggs now 
this last week in July. The first crickets that we saw last 
year came up from Skull Valley off of the Federal land in the 
first week of July. They were large and that is when they 
started laying their eggs. They were gone, basically starting 
to die, by the first week in August. And it seemed like the 
later in the life stage, they eat less. It was in April and May 
as they were sub-adults, that they were really devastating on 
our rangeland as new growth was coming on. That is when we saw 
the most damage from the crickets, was quite early on in their 
life cycle.
    Mr. Hefley. Well, I think you have been a wonderful group 
of witnesses, and I think you have been very, very convincing 
to this Committee. And I think the weight of this Committee 
will be thrown behind doing whatever we can to get you some 
help to not only get this under control but to make sure that 
it doesn't happen again.
    You notice that the three of us here are Westerners, and 
don't take it that the rest of the Committee doesn't have an 
interest or won't pay attention to it, because we will see that 
they certainly do. But we do have as Westerners oftentimes 
trouble getting the representatives from the East to understand 
some of our special problems that we have in the West that are 
very different from the East, and there is where you get 8 
inches of rainfall a year compared to 100 inches in some places 
in the East. They don't understand some of these things, and it 
is hard to get us to do it. And I am wondering, Jim, if we 
should release a breeding population of these things here on 
the East Coast so that they would understand.
    [Laughter.]
    Mr. Hefley. Do you think at all that would help the 
situation? If you don't get the money, you would like to do it, 
I am sure. You don't have to answer that.
    Jim, did you have a comment?
    Mr. Gibbons. Mr. Chairman, that was going to be my 
suggestion as a way of introducing and educating some of our 
members on the Committee who aren't familiar with Western 
heritage issues. Just take this bottle right here and, oh, 
maybe five or six in each one of their offices would give them 
a quick understanding of just the problems we are dealing with.
    Mr. Hefley. Well, it is a very unique kind of special 
problem that we have in certain areas of the West, and, 
unfortunately, we have great populations of things like the 
Mormon crickets in the West. We don't have great populations of 
Representatives to Congress from the West. Most of them are up 
and down the East Coast and in California. So it is a little 
difficult to convince them. But you have presented a very 
graphic, fact-based picture of what the situation is. I think I 
have a much better understanding--I would guess all of us do--
of the problem you are facing, and we will do what we can to be 
helpful.
    Your trip I hope has not been in vain. At least it has not 
been with this Committee, and we will see what we can do to be 
helpful.
    Yes, sir, Commissioner?
    Mr. Peterson. Could I answer, I think it was Congressman 
Cannon's question, about what kind of help is there for a 
devastated rancher. The Governor declared this a disaster in 
our State, and then with documentation of those losses through 
the Farm Service Agency Committees in our county, then claims 
could come forward for disaster relief through the U.S. 
Department of Agriculture. And I think Secretary Veneman has 
some resources that could in small part compensate for that 
damage.
    Mr. Cannon. Mr. Chairman, I would be happy to sit with the 
Commissioner after this session and chat about what those 
possibilities are.
    Mr. Hefley. Okay. Panel, do you have any other comments 
before we close?
    [No response.]
    Mr. Hefley. Well, then, thank you very, very much for being 
here. You have been very helpful.
    The Committee stands adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
